Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Office of Juvenile Justice and Delinquency Prevention 
Youth Violence and Gambling Project: A Positive Development Approach Awarded to Fuller Theological Seminary Grant Number 2002-JN-FX-K002Pasadena, California

Report No. GR-90-04-008


April 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Youth Violence and Gambling Project grant, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention (OJJDP) to Fuller Theological Seminary headquartered in Pasadena, California.  The purpose of this grant was to encourage, coordinate, and conduct research and evaluation of juvenile justice and delinquency prevention activities.  The Seminary's approach to youth violence prevention uses strengths from various models.  The project features interlocking elements, conducted over a three-year timetable, designed to advance scientific knowledge and increase utilization of "best practices" of violence prevention for at-risk children and adolescents.  As of September 30, 2002, Fuller Theological Seminary was awarded a total of $1,800,000 to encourage, coordinate, and conduct research and evaluation of juvenile justice and prevention activities.  We tested Fuller Theological Seminary's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Of the $634,480.62 expended as of October 31, 2003, we tested transactions totaling $530,901.  As a result, we question $8,365 in grant funds received.  If brief, we found:

For FY 2003, ten disbursements totaling $5,594 did not have supporting invoices or receipts.  Since the audit's completion, Fuller Theological Seminary submitted support for $5,516 of the disbursements, leaving $74.27 in unsupported expenditures.


One unauthorized expenditure in the amount of $2,771 was made before the start of the grant period.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.